April 19, 2012

TO:              Marilyn Tavenner
                 Acting Administrator
                 Centers for Medicare & Medicaid Services


FROM:            /Gloria L. Jarmon/
                 Deputy Inspector General for Audit Services


SUBJECT:         Review of Selected Medicaid Home Health Services Claims Made by Jewish
                 Home and Hospital Lifecare Community Services – Manhattan LTHHCP
                 (A-02-10-01002)


Attached, for your information, is an advance copy of our final report on selected Medicaid
home health services claims made by Jewish Home and Hospital Lifecare Community Services –
Manhattan LTHHCP. We will issue this report to the New York State Department of Health
within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or
through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-10-01002.


Attachment
                                                              O FFICE OF A UDIT S ERVICES , R EGION II
                                                                J ACOB K. J AVITS F EDERAL B UILDING
                                                                     26 F EDERAL P LAZA , R OOM 3900
April 20, 2012                                                               N EW Y ORK, NY 10278

Report Number: A-02-10-01002

Nirav R. Shah, M.D., M.P.H.
Commissioner
New York State Department of Health
14th Floor, Corning Tower
Empire State Plaza
Albany, NY 12237

Dear Dr. Shah:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Selected Medicaid Home Health Services Claims
Made by Jewish Home and Hospital Lifecare Community Services – Manhattan LTHHCP. We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Kevin W. Smith, Audit Manager, at (518) 437-9390, extension 232, or through email at
Kevin.Smith@oig.hhs.gov. Please refer to report number A-02-10-01002 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Nirav R. Shah, M.D., M.P.H.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations (CMCHO)
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 REVIEW OF SELECTED MEDICAID
 HOME HEALTH SERVICES CLAIMS
  MADE BY JEWISH HOME AND
 HOSPITAL LIFECARE COMMUNITY
SERVICES – MANHATTAN LTHHCP



                       Daniel R. Levinson
                        Inspector General

                           April 2012
                         A-02-10-01002
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. Pursuant to section 1905(b) of the Act, the
Federal Government pays its share of a State’s medical assistance expenditures under Medicaid
based on the Federal medical assistance percentage (FMAP), which varies depending on the
State’s relative per capita income.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act provided an
estimated $87 billion in additional Medicaid funding based on temporary increases in States’
FMAP.

In New York State (the State), the Department of Health (State agency) administers the Medicaid
program. The Long Term Home Health Care Program (LTHHCP) is a Home and Community
Based Services Medicaid waiver program approved by CMS and operated by the State agency’s
Office of Long Term Care. The LTHHCP provides Medicaid beneficiaries with community-
based services as an alternative to institutional care. LTHHCP providers furnish both waiver
services and State plan services to waiver participants.

Pursuant to Federal regulations, home health services are services provided to a beneficiary at
the beneficiary’s place of residence and on his or her physician’s orders as part of a written plan
of care that the physician reviews every 60 days. Many providers use Form CMS-485, Home
Health Certification and Plan of Care, to document physicians’ orders for home health services.

Jewish Home and Hospital Lifecare Community Services – Manhattan LTHHCP (Jewish Home)
is one of two long-term home health care programs operated by Jewish Home Lifecare, a not-for-
profit corporation based in New York, New York.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for selected State plan home health services claims submitted by Jewish Home in
accordance with Federal and State requirements.




                                                 i
SUMMARY OF FINDINGS

The State agency did not claim Federal Medicaid reimbursement for some home health services
claims submitted by Jewish Home in accordance with Federal and State requirements. Of the
100 claims in our random sample, 61 claims complied with Federal and State requirements, but
39 claims did not. Of the 39 claims, 2 contained more than 1 deficiency. Specifically:

   •   For 39 claims, the care plan was not reviewed.

   •   For one claim, there was no documentation that the service was provided.

   •   For one claim, the home health aide did not receive basic training.

These deficiencies occurred because (1) Jewish Home and its contracted home health providers
did not comply with certain Federal and State requirements and (2) the State agency did not
effectively monitor Jewish Home for compliance with certain Federal and State requirements.

Based on our sample results, we estimate that the State agency improperly claimed $8,177,970 in
Federal Medicaid reimbursement during our January 1, 2006, through June 30, 2009, audit
period.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $8,177,970 to the Federal Government and

   •   improve its monitoring of Jewish Home and its contracted home health providers to
       ensure compliance with Federal and State requirements.

JEWISH HOME COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, Jewish Home disagreed with our findings and recommended
financial disallowance. Specifically, Jewish Home stated that our application of Federal and
State regulations was “hyper-technical” and that our interpretation of the regulations was both
incorrect as a matter of law and inconsistent with the State’s LTHHCP audit standards.

After reviewing Jewish Home’s comments and the additional documentation provided, we
revised our findings and modified our statistical estimates accordingly. Jewish Home’s
comments appear as Appendix D. We did not include portions of attachments to the comments
that contained voluminous amounts of personally identifiable information or described internal
policies of the State’s Office of Medicaid Inspector General.




                                                ii
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with both of our
recommendations. The State agency stated that our first recommendation (financial
disallowance) is based on a misinterpretation of program requirements. Specifically, the State
agency stated that neither Federal regulations at 42 CFR § 440.70(a)(2) or State regulations at
10 NYCRR § 763.7(a)(3) “implicitly require a physician’s signature on the plan of care; only a
physician’s review is required.” (Emphasis added by the State agency.) Regarding our second
recommendation, the State agency stated that its program monitoring is effective and that Jewish
Home complied with program requirements by implementing a system to track care plans
(Forms CMS-485).

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. While we agree that neither Federal or State regulations require a
physician’s signature on the care plan, for home health services to be allowable under 42 CFR
§ 440.70, the State must document that services were furnished to a recipient “on his or her
physician’s orders as part of a written plan of care that the physician reviews every 60 days ….”
If the physician did not sign and date the form that Jewish Home used as the plan of care
(i.e., Form CMS-485), Jewish Home must otherwise document that the physician reviewed the
plan of care every 60 days–a requirement for Federal reimbursement for Medicaid State plan
home health services.

We disagree that the State agency’s program monitoring is effective, as evidenced by the high
error rate at Jewish Home. We found Jewish Home’s tracking system to be unreliable for several
claims reviewed, as the dates on the tracking system did not match the dates on the care plans.
Also, the tracking system did not ensure that care plans were reviewed every 60 days as required.

The State agency’s comments are included in their entirety as Appendix E.




                                                iii
                                                   TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
            Medicaid Program ..................................................................................................... 1
            American Recovery and Reinvestment Act of 2009................................................. 1
            New York State’s Medicaid Program ....................................................................... 1
            New York State’s Long Term Home Health Care Program ..................................... 1
            Federal Requirements Related to Home Health Services ......................................... 2
            State Requirements Related to Home Health Services ............................................. 2
            Jewish Home and Hospital Lifecare Community
              Services – Manhattan LTHHCP ............................................................................ 3
            Office of Inspector General Audits ........................................................................... 3

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 3
            Objective ................................................................................................................... 3
            Scope ........................................................................................................................ 3
            Methodology ............................................................................................................. 4

FINDINGS AND RECOMMENDATIONS ........................................................................... 4

          CARE PLAN NOT REVIEWED ................................................................................... 5

          NO DOCUMENTATION TO SUPPORT SERVICE .................................................... 5

          AIDE DID NOT RECEIVE BASIC TRAINING ........................................................... 5

          CAUSES OF UNALLOWABLE CLAIMS ................................................................... 6
            Noncompliance With Certain Federal and State Requirements ............................... 6
            Ineffective State Agency Monitoring........................................................................ 6

          ESTIMATE OF THE UNALLOWABLE AMOUNT.................................................... 6

          RECOMMENDATIONS ................................................................................................ 6

          JEWISH HOME COMMENTS ..................................................................................... 6

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 7

          STATE AGENCY COMMENTS ................................................................................... 8

          OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................... 8



                                                                      iv
APPENDIXES

    A: FORM CMS-485, HOME HEALTH CERTIFICATION AND PLAN OF CARE

    B: SAMPLE DESIGN AND METHODOLOGY

    C: SAMPLE RESULTS AND ESTIMATES

    D: JEWISH HOME COMMENTS

    E: STATE AGENCY COMMENTS




                                v
                                           INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. Pursuant to section 1905(b) of the Act, the
Federal Government pays its share of a State’s medical assistance expenditures under Medicaid
based on the Federal medical assistance percentage (FMAP), which varies depending on the
State’s relative per capita income.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act provided an
estimated $87 billion in additional Medicaid funding based on temporary increases in States’
FMAP.

New York State’s Medicaid Program

In New York State (the State), the Department of Health (State agency) administers the Medicaid
program. The State agency uses the Medicaid Management Information System (MMIS), a
computerized payment and information reporting system, to process and pay Medicaid claims,
including claims for home health services. Prior to the recession adjustment period, from
January 1, 2006, through September 30, 2008, the FMAP in the State was 50 percent. From
October 1, 2008, through June 30, 2010, the FMAP in the State varied from 58.78 percent to
61.59 percent. 1

New York State’s Long Term Home Health Care Program

In the State, the Long Term Home Health Care Program (LTHHCP) is a Home and Community
Based Services Medicaid waiver program approved by CMS and operated by the State agency’s
Office of Long Term Care. The LTHHCP provides Medicaid beneficiaries with community-
based services as an alternative to institutional care. LTHHCP providers furnish both waiver

1
  Specifically, from October 1, 2008, through March 31, 2009, the FMAP was 58.78 percent; from April 1, 2009,
through June 30, 2009, the FMAP was 60.19 percent; and from July 1, 2009, through June 30, 2010, the FMAP was
61.59 percent.


                                                      1
services and State plan services to LTHHCP participants. Waiver services include moving
assistance, nutritional counseling, and respiratory therapy. State plan services include personal
care, nursing, home health aide, physical therapy, occupational therapy, and speech therapy.

Reimbursement under the Medicaid program is available for LTHHCP services provided by
residential health care facilities and hospitals, as well as home health agencies certified by the
State agency. Under the approved State Medicaid plan, State plan services must be furnished by
a certified home health agency.

Federal Requirements Related to Home Health Services

Section 1905(a)(7) of the Act authorizes home health care services under the Medicaid State plan.
Pursuant to 42 CFR § 440.70(a), “home health services” are services provided to a beneficiary at
the beneficiary’s place of residence and “[o]n his or her physician’s orders as part of a written plan
of care that the physician reviews every 60 days ….” Many providers use Form CMS-485, Home
Health Certification and Plan of Care, to document physicians’ orders for home health services. 2
Line 3 of the Form CMS-485 is titled “Certification Period” and includes spaces for providers to
enter “From” and “To” dates for valid home health services.

Office of Management and Budget Circular A-87 establishes principles and standards for
determining allowable costs incurred by State and local governments under Federal awards.
Section C.1.c of Attachment A of the Circular provides that to be allowable, costs must be
authorized or not prohibited under State or local laws or regulations. Pursuant to 42 CFR
§ 433.32, services claimed for Federal Medicaid reimbursement must be documented.

State Requirements Related to Home Health Services

New York’s approved State Medicaid Plan (SPA 07-13) provides that home care services are
medically necessary services (physician order required) provided by a certified home health
agency to individuals in the home and community. State regulations relating to home health
services covered under the State plan are set forth at Title 18 § 505.23 of the New York
Compilation of Codes, Rules, & Regulations (NYCRR). Pursuant to 18 NYCRR § 505.23(a)(3),
only persons who meet State agency training requirements may provide home health aide
services. Further, pursuant to 10 NYCRR § 700.2 (b)(9), “[h]ome health aides shall have
successfully completed a basic training program in home health aide services or an equivalent
exam approved by the department and possess written evidence of such completion.” Pursuant
to 18 NYCRR § 504.3(a), by enrolling in the State’s Medicaid program, a provider agrees to
maintain records demonstrating its right to receive payment and to furnish such records to the
State and to the U.S. Department of Health and Human Services (HHS).




2
  Form CMS-485 is not a required form. Home health agencies may submit any document that is signed and dated
by a physician that contains all of the required data elements in a readily identifiable location within the medical
record and in accordance with the current rules governing the home health plan of care.


                                                          2
Jewish Home and Hospital Lifecare Community Services – Manhattan LTHHCP

Jewish Home and Hospital Lifecare Community Services – Manhattan LTHHCP (Jewish Home)
is one of two long-term home health care programs operated by Jewish Home Lifecare, a not-for-
profit corporation based in New York, New York. 3 Jewish Home contracts with licensed nursing
and home health agencies, including a subsidiary of its parent corporation, to provide home
health services. As a policy, Jewish Home uses the Form CMS-485 to document a physician’s
certification for home health services and plan of care for each Medicaid beneficiary. (See
Appendix A for the CMS form.)

Office of Inspector General Audits

This audit is one of a series of audits that address Medicaid home health services providers that
we identified as high-risk. We are conducting these audits in response to the estimated
$87 billion in increased FMAP under the Recovery Act.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for selected State plan home health services claims submitted by Jewish Home in
accordance with Federal and State requirements.

Scope

Our audit period covered January 1, 2006, through June 30, 2009. Our review covered 414,633
claim lines, totaling $54,411,000 ($28,366,886 Federal share), submitted by Jewish Home. (We
refer to these lines in this report as claims.) We limited our review to claims for the following
State plan services: home health aide, nursing, occupational therapy, physical therapy, and
speech therapy.

During our audit, we did not review the overall internal control structure of Jewish Home, the
State agency, or the Medicaid program. Rather, we limited our internal control review to those
controls related to the objective of our audit.

We performed fieldwork at the State agency’s offices in Albany, New York, at the MMIS fiscal
agent in Rensselaer, New York, at Jewish Home’s offices in New York, New York, and at 10
home health agencies contracted by Jewish Home located throughout New York City.




3
 During our audit period, Jewish Home Lifecare operated as Jewish Home and Hospital Lifecare. Jewish Home
Lifecare also operates Jewish Home and Hospital Lifecare Community Services – Bronx LTHHCP, a long-term
home health program in The Bronx, and Home Assistance Personnel, Inc., a licensed home care services agency.

                                                       3
Methodology

To accomplish our objective, we:

      •    reviewed applicable Federal and State laws, regulations, and guidelines;

      •    held discussions with officials of the State agency and county social service districts to
           gain an understanding of home health services furnished by LTHHC providers;

      •    held discussions with Jewish Home officials to gain an understanding of Jewish Home’s
           procedures for claiming Medicaid reimbursement for home health services;

      •    identified a sampling frame of 414,633 selected State plan home health services claims,
           totaling $54,411,000 ($28,366,886 Federal share), that Jewish Home submitted;

      •    selected a simple random sample of 100 claims 4 from the sampling frame of 414,633
           claims;

      •    reviewed Jewish Home’s and/or the corresponding contracted agency’s documentation
           supporting each of the 100 sampled claims; and

      •    estimated the unallowable Federal Medicaid reimbursement paid in the population of
           414,633 claims.

Appendix B contains the details of our sample design and methodology.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATIONS

The State agency did not claim Federal Medicaid reimbursement for some home health services
claims submitted by Jewish Home in accordance with Federal and State requirements. Of the
100 claims in our random sample, 61 claims complied with Federal and State requirements, but
39 claims did not. Of the 39 claims, 2 contained more than 1 deficiency. The following table
summarizes the deficiencies noted and the number of claims that contained each type of
deficiency.




4
    The 100 sampled claims comprised 87 home health aide services and 13 long-term nursing services.

                                                         4
                           Summary of Deficiencies in Sampled Claims
                                 Deficiency                        Unallowable Claims 5
      Care plan not reviewed                                               39
      No documentation to support service                                   1
      Aide did not receive basic training                                   1

These deficiencies occurred because (1) Jewish Home and its contracted home health providers
did not comply with certain Federal and State requirements and (2) the State agency did not
effectively monitor Jewish Home’s compliance with certain Federal and State requirements.

Based on our sample results, we estimate that the State agency improperly claimed $8,177,970 in
Federal Medicaid reimbursement during our January 1, 2006, through June 30, 2009, audit
period.

CARE PLAN NOT REVIEWED

Pursuant to 42 CFR § 440.70(a)(2), home health services are services provided to a beneficiary
on his or her physician’s orders as part of a written care plan that the physician reviews every
60 days. As a policy, Jewish Home uses Form CMS-485 to document a physician’s certification
for home health services and plan of care for each Medicaid beneficiary.

For 39 of the 100 claims in our sample, the corresponding care plan was not reviewed by a
physician within the 60-day certification period indicated on the corresponding
Form CMS-485. For 16 of the 39 claims, we were unable to determine when the physician
reviewed the applicable Form CMS-485. For the remaining 23 claims, the physician reviewed
the Form CMS-485 an average of 177 days after the certification period ended.

NO DOCUMENTATION TO SUPPORT SERVICE

Pursuant to 42 CFR § 433.32, services claimed for Federal Medicaid reimbursement must be
documented. Pursuant to 18 NYCRR § 504.3(a), by enrolling in the State’s Medicaid program, a
provider agrees to maintain records demonstrating its right to receive payment and to furnish
such records to the State and to HHS. Pursuant to 18 NYCRR § 505.23(e)(1), payments for
home health services are prohibited unless the claims for payment are supported by
documentation of the time spent providing services.

For 1 of the 100 sampled claims, Jewish Home did not provide documentation that the related
service (long-term nursing) was provided.

AIDE DID NOT RECEIVE BASIC TRAINING

Pursuant to 18 NYCRR §505.23(a)(3)(iii), home health services under the Medicaid program
include home health aide services “as defined in the regulations of the Department of Health,
provided by a person who meets the training requirements of the Department of Health ….”

5
    The total exceeds 39 because 2 claims contained more than 1 deficiency.

                                                          5
Pursuant to 10 NYCRR §700.2, “home health aides shall have successfully completed a basic
training program in home health aide services or an equivalent exam approved by the department
[of Health] and possess written evidence of such completion.”

For 1 of the 100 sampled claims, Jewish Home’s contracted home health agency did not provide
any evidence that the aide who provided the corresponding service completed a basic training
program in home health aide services or an equivalent exam.

CAUSES OF UNALLOWABLE CLAIMS

Noncompliance With Certain Federal and State Requirements

As described above, 39 of the 100 sampled claims that Jewish Home submitted for Federal
Medicaid reimbursement did not comply with Federal and State requirements. Jewish Home
officials stated that they were aware of these requirements and attempted to comply with them.

Ineffective State Agency Monitoring

During our audit period, the only monitoring that the State agency performed was a
recertification survey conducted in October 2008. As part of this survey, the State agency
reviewed eight records and found the provider to be in “substantial compliance” with all Federal
Conditions of Participation.

ESTIMATE OF THE UNALLOWABLE AMOUNT

Of the 100 home health services claims sampled, 39 were not made in accordance with Federal
and State requirements. Based on our sample results, we estimate that the State agency
improperly claimed $8,177,970 in Federal Medicaid reimbursement from January 1, 2006,
through June 30, 2009, for selected State plan home health services claims submitted by Jewish
Home. The details of our sample results and estimates are shown in Appendix C.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $8,177,970 to the Federal Government and

   •   improve its monitoring of Jewish Home and its contracted home health providers to
       ensure compliance with Federal and State requirements.

JEWISH HOME COMMENTS

In its comments on our draft report, Jewish Home disagreed with our findings and recommended
financial disallowance. Specifically, Jewish Home stated that our application of Federal and
State regulations was “hyper-technical” and that our interpretation of these regulations was both
incorrect as a matter of law and inconsistent with the State’s LTHHCP audit standards.

                                                6
Jewish Home stated that 42 CFR § 440.70(a)(2) is “simply a definitional section relating to home
health services” and “provides only that the care plan must be reviewed by the physician every
60 days” (emphasis in original) and does not require a signature. However, Jewish Home stated
that each of the beneficiaries associated with our sampled claims had care plans that were, “in
the vast majority of cases, ultimately signed by the physician” and that its staff made every
reasonable effort to ensure that those care plans were reviewed and signed by physicians.

Jewish Home also stated that, because the LTHHCP is “a creature of New York State law,” State
law should govern the issue of when physician signatures are needed on clinical records, and
Jewish Home cited 10 NYCRR § 763.7(a)(3)(iii), which requires that beneficiary’s care plan be
“renewed … as frequently as indicated by the patient’s condition but at least every 62 days.”
According to Jewish Home, “there is no requirement for a physician signature simply to renew a
plan of care or that related paperwork must be finalized within the same timeframe.”

Jewish Home also stated that our draft report improperly applied “conditions of participation” in
the Medicaid program as “conditions of payment” and that only administrative sanctions were
appropriate.

Jewish Home stated that, for three sample claims (numbers 45, 53, and 93), its tracking records
indicated that the corresponding physician’s order was signed during the 60-day window. For
eight other sample claims, Jewish Home stated that the claims met the State’s Office of Medicaid
Inspector General’s (OMIG) 90-day requirement for plans of care to be signed and should
therefore be allowed. Jewish Home also stated that it had plans of care for two other sample
claims (numbers 35 and 72) and that claim number 34 was properly documented. In addition,
Jewish Home stated that it made every reasonable effort to ensure that aides are properly trained.
Finally, Jewish Home provided us with additional documentation for certain sampled claims.

Jewish Home’s comments appear as Appendix D. We did not include portions of attachments to
the comments that included voluminous amounts of personally identifiable information or
described OMIG internal policies.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Jewish Home’s comments and the additional documentation provided, we
revised our findings and modified our statistical estimates accordingly.

Jewish Home furnishes Medicaid State plan home health services to LTHHCP participants.
Federal regulations define the home health services that constitute “medical assistance” under the
State plan pursuant to § 1905(a)(7) of the Act. Federal Medicaid reimbursement is available
only for home health services that meet the definition set forth at 42 CFR § 440.70(a)(2). For
home health services to be allowable under 42 CFR § 440.70, the State must document that
services were furnished to a recipient “on his or her physician’s orders as part of a written plan of
care that the physician reviews every 60 days ….” If the physician did not sign and date the
form that Jewish Home used as the plan of care (i.e., Form CMS-485), Jewish Home must
otherwise document that the physician reviewed the plan of care every 60 days. This



                                                 7
requirement is not a condition of participation, but rather a requirement for Federal
reimbursement for Medicaid State plan home health services.

We did not rely on Jewish Home’s tracking system to document the physician’s review for any
of the three sample claims because we noted multiple errors in the data within the system that led
us to question the system’s validity. Regarding claim number 53, we did not accept tracking
system records as evidence that the physician signed and dated the document within the 60-day
window. For claim number 45, the applicable care plan was not signed by the physician within
the 60-day window. We accepted claim number 93 because, as part of its additional
documentation, Jewish Home provided an acceptable copy of the care plan.

Regarding the eight claims that Jewish Home stated met OMIG’s 90-day requirement for plans
of care to be signed, 42 CFR § 440.70 requires review every 60 days, and that is the standard we
used in reviewing the claims. Also, two of the eight sample claims did not have a signature date;
therefore, Jewish Home relied on its tracking system for this information. Jewish Home did
provide care plans for claim numbers 35 and 72; however, the care plan for number 35 was not
signed or dated by a physician, and the care plan for number 72 was signed more than 3 years
after the end of the authorization period. Regarding claim number 34, our sample date of service
was April 21, 2006. However, Jewish Home provided a note for the preceding day, April 20,
2006. Because a nursing service was provided on our sampled service date, a nursing note is
required for that date.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with both of our
recommendations. The State agency stated that our first recommendation (financial
disallowance) is based on a misinterpretation of program requirements. Specifically, the State
agency stated that neither Federal regulations at 42 CFR § 440.70(a)(2) or State regulations at
10 NYCRR § 763.7(a)(3) “implicitly require a physician’s signature on the plan of care; only a
physician’s review is required.” (Emphasis added by the State agency.) Regarding our second
recommendation, the State agency stated that its program monitoring is effective and that Jewish
Home complied with program requirements by implementing a system to track care plans
(Forms CMS-485).

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. While we agree that neither Federal or State regulations require a
physician’s signature on the care plan, for home health services to be allowable under 42 CFR
§ 440.70, the State must document that services were furnished to a recipient “on his or her
physician’s orders as part of a written plan of care that the physician reviews every 60 days ….”
If the physician did not sign and date the form that Jewish Home used as the plan of care
(i.e., Form CMS-485), Jewish Home must otherwise document that the physician reviewed the
plan of care every 60 days–a requirement for Federal reimbursement for Medicaid State plan
home health services.



                                                 8
We disagree that the State agency’s program monitoring is effective, as evidenced by the high
error rate at Jewish Home. We found Jewish Home’s tracking system to be unreliable for several
claims reviewed, as the dates on the tracking system did not match the dates on the care plans.
Also, the tracking system did not ensure that care plans were reviewed every 60 days as required.

The State agency’s comments are included in their entirety as Appendix E.




                                               9
APPENDIXES
APPENDIX A: FORM CMS-485, HOME HEALTH CERTIFICATION
                 AND PLAN OF CARE
                   APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was selected State plan home health claim lines (claims) submitted by Jewish
Home and Hospital Lifecare Community Services – Manhattan LTHHCP (Jewish Home) during
our January 1, 2006, through June 30, 2009, audit period that were claimed for Federal Medicaid
reimbursement by the New York State Department of Health.

SAMPLING FRAME

The sampling frame was a computer file containing 414,633 detailed paid claims for selected
State plan home health services that Jewish Home submitted during our audit period. 1 The total
Medicaid reimbursement for the 414,633 claims was $54,411,000 ($28,366,886 Federal share).
The Medicaid claims were extracted from the claim files maintained at the Medicaid
Management Information System fiscal agent.

SAMPLE UNIT

The sample unit was an individual Federal Medicaid claim.

SAMPLE DESIGN

We used a simple random sample to evaluate the population of Federal Medicaid claims.

SAMPLE SIZE

We selected a sample of 100 claims.

SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services’ statistical software,
RAT-STATS. We used the random number generator for our sample.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the 414,633 detailed claims. After generating 100 random numbers,
we selected the corresponding frame items. We created a list of 100 sample items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit at the 90-percent
confidence level to estimate the overpayment associated with the unallowable claims.


1
  We limited our review to claims for the following State plan services: home health aide, nursing, occupational
therapy, physical therapy, and speech therapy.
            APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                           Sample Details and Results
                                                                          Value of
             Value of                                     Number         Unallowable
              Frame                      Value of             of           Claims
Claims in    (Federal      Sample         Sample         Unallowable      (Federal
 Frame        Share)        Size      (Federal Share)      Claims          Share)
 414,633    $28,366,886      100          $7,125             39            $2,530


                     Estimated Value of Unallowable Costs
            (Limits Calculated for the 90-Percent Confidence Interval)

                   Point estimate                    $10,492,288
                   Lower limit                         8,177,970
                   Upper limit                        12,806,606
                                                                                            Page l of l2


             APPENDIX D: JEWISH HOME COMMENTS 




                                                                        ~eWi Sh      Home Lifecare

                                      September 19, 2011


Mr. James P. Edert
Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services, Region [I
Jacob Javits Federal Building
26 Federal Plaza-Room 3900
New York, NY 10276

       Be:     Review of Selected Medicaid Home Heanh Services Claims Made by Jewish
               Home and Hospital Ufecare Community Servic9s - Manhattan L THHCP
               RepOrt Number A-Q2-1Q-Q1Q02

Dear Mr. Edert:

       This submission is in response to your draft July 2011 Report titled, "Review of Selected
Medicaid Home Health Services Claims Made By Jewish Home And Hospital Lifecare
Community Services - l THHCP" (the "Draft Report'). We appreciate the opportunity to
respond to the Draft Report, wh ich as detailed below, contains a number of proposed find ings
thai should be revised in the final report. The great majority of the recommended disallowances
in the Draft Report center on The Department of Health & Human Services ' (' HHS") findings
that, of the 100 claims reviewed, 38 cases were not reviewed by a ph ysician within a 60-day
certification period. T he Draft Report also asserts that for two cl aims no care plan was
provided, for one claim there was no documentation of service and in one case an aide d id not
receive the requisite training. Based on these find ings, the Draft Report concludes that each of
these claims fOf reimbursement should be disallowed and the Medicaid funds associated with
these claims relurned 10 the Federal Government by the Stale of New Vorl<.. As detailed below,
we believe thallhese conclusions are incorred and Ihat the reimbursements were proper.

         Significanlly, the Draft Report does not assert that any of the reimbursed services were
nol provided, were not needed or that the patients were improperty in the long Tem Home
Health Care Program   rL    T HHCP"). The reason for this is clear. In the vast majority of cases,
the care plans were eventually signed. and the prior and subsequent care plans also were
authorized by the physici an. Moreover, the record shows that in many of the cases, during the
period when the care plan was unsigned, the physicians were interacting with the nurses as
issues arose and were providing verbal orders of care demonstrating their approval of the need
for l T HHCP services.       In short, lhere is no factual basis to conclude that the services in
question were nol necessary.
                                                                                                 Page 2 of 12




Mr. James P. Edert                                                          ~
September 19, 2011                                                           Y
Page 2 of 10                                                                  Jewish Home lifecare
        In order to reach its conclusion, HHS has applied a hyper-Ie           nical requiremem that
patient care plans must be signed by the physician every 60 days.               utting aside that this
interpretation is both incorrect as a matter of law and inconsistent with the New York State audit
standards of LTHHCP programs, by laking this position the Draft Report ignores the reality of
how LTHHCP programs operate. The doctors are not employees of Jewish Home Lifecare
("JHl") and do not work in JHl facilities. As such, JHL has no ability to force these
professionals to sign the care plans in any set lime frame. Instead, JHl can only send the
forms to these doctors and press them to return the form. The record shows that this is exaclly
what was done.

          For each and every sample, JHL not only sent the care plan to the doctor prior to the
care plan taking effect, but also re-sent the form within the SO-day period and made several
additional attempts to gain the signature through repealed contacts. In cases where these
diligent efforts failed, the matter was then assigned to a Director of Patient Services, who made
further attempts. Uftimately, as a result of these efforts, the vast majority of the care plans at
issue were signed by the doctor, verifying that they were appropriate. What the Draft Report
fails to state is what additional course of action JHL could or should have taken, or where JHl
was deficient in its actions.

          The consequences of allowing the Draft Report to remain in its current form are
 significant and almost certainly unacceptable as a legal, fiscal and policy matter. Followed to
 its logical conclusion, if the doctor fails to sign lhe current plan of care within a 60-day window, a
provider would be left wilh two choices: (1) continue to provide the medically necessary
services understanding that it would receive no reimbursement, or (2) refuse 10 provide this
 necessary care and initiate steps to discharge the patient. Either of these actions would
ultimately be detrimental 10 the patient. Under the first scenario JHL and all other l THHCP
providers would be left in the untenable position of bearing the cost for these essential services,
a decision which would quickly make participation in the program fiscally impractical for all
providers. Under such circumstances, many of these patients would instead end up in a nursing
home - the very outcome thai the LTHHCP was intended to prevent. Under the second
scenario, patients would be forced into hospitals or nursing homes simply through the lack of
diligence of their doctors. Of course, there also would be numerous fair hearings and other
legal challenges to the discontinuance of LTHHCP services. In either case, the result would be
to undermine the worthy goals that led to the establishment of the l THHCP.

         The Draft Report also imposes a requirement on providers 10 obtain a signature in a time
frame that is both absent from the relevant statutes and inconsistent with the New York Office of
the Medicaid Inspector General's ("OMIGO) audit standards for the lTHHCP. The law is clear
that no signature or date is required. Instead, as discussed below all that is required is that the
plan be reviewed. Given that the audit staff did not interview any of the doctors, each of whom
received a copy of the plan of care during the time period at issue and did not give any
indication of disagreement with the plan, there is no basis for asserting that the plans were not
in fact reviewed. Further, the LTHHCP audit standards in force and publicized by OMIG made
clear thai In cases In Which the care plan was reviewed within 90 days -- which occurred in
multiple cases - there would be no disallowance.
                                                                                                Page 3 of 12



 Mr. James P. Edert                                                        (
 September 19, 2011
 Page 3 of 10                                                                  Jewish Home Lifecare
       Finally, the Draft Report misinterprets cooditions for participation with conditions of
payment. Relevant case law and handbooks are very clear that where proper services were
provided, the fact that a technical condition of participation was not met cannot be used as a
basis to( a disallowance.

        For these reasons and as sel forth in more detail below, the Draft Report is fatally Hawed
in both its approach and its find ings. While JHl recognizes the importance of obtaining timely
signatures, the inability to obtain suCh a signature should not be a basis for disallowance of
payment to a provider who was unable to compel a third-party to act. Rather, the Draft Report
should consider other ways to strengthen the process to engender physician compliance.

I.      The Long Tenn Home Health Care Program

          The importance of the LTHHCP cannot be overstated. Through its coordinated plan of
care, services are provided to individuals who would otherwise be eligible for placement in
hospitals or residential treatment faci lities for a protraded time period. LTHHCP providers
deliver a variety of services to ill or disabled individuals in their homes or adult care facilities.
These services include case managemenl, nursing, therapy, medical supplies and equipment,
and homemaker and housekeeper services. The LTHHCP has operated successfully in New
York for over 27 years and serves over 22,000 patients. The program enables individuals to
avoid institutionalization and most patients remain in the program for multiple years. People of
all ages benefit from the services of the LTHHCP, but the most common recipients of LTHHCP
services are frail , elderty individuals who would have difficulty acclimating to an unfamiliar health
facility.

        In addition to the benefits the patient receives , the program also provides significant
savings to the Medicaid program. Indeed, one of the goals of the LTHHCP is °to prevent or
reduce lhe costs associated with unnecessary hospitalization and the unnecessary utilization of
other costly health services, through provision of close case management and monitoring." See
LTHHC Program Reference Manual , at 1· 2. The New York Social Services Law mandates that
the cost of LTHHCP services generally cannot exceed 75% of the cost of care in a skilled
nursing facility (,SNF") or a health·related facility ('HRF"). See N.Y. Soc. Servs. Law § 367·c.
For individuals living in an adult care facility, Medicaid expenditures cannot exceed 50% of the
cost of care in a SNF or HRF. See id; 18 NYCRR 505.21. These cost limitations and attendant
savings allow the State to direct much-needed Medicaid resources to other critical services and
programs.

       Under the program, there are two separate methods by which a patient is certified as
being properly placed in the LTHHCP. First the overseeing physician is supposed to review the
plan of care every 60 days. See LTHHC Program Reference Manual, at 2·19. In addition,
every 120 days, a complete reassessment of each individual is jointly conducted by the nurse
representative of the individual's LTHHCP provider and LOSS representative. See kJ., at 2·21 .

II.    Each of the Patients Was Appropriately Receiving L THHCP Care
                                                                                             Page 4 of 12




Mr James P. Edert
September 19. 2011
Page 4 of 10
                                                                         tI
                                                                              Jewish Home Lifeca re
         As set fort h In detail In Appendix A and the accompanying documents, each of the
patients at issue was appropriately receiving LTHHCP services. In most cases, these were
elderly patients who, without these services, would have had to have been transferred to a
hospital or a nursing home. All of the patients had signed care plans enrolling the patient in the
program. Each of the patients (including those who the Draft Report claims d id nol have care
plans during the time period at issue) had care plans that were. in the vast majority of cases,
ultimately signed by the physidan. In no case did the physician question whether l THHCP care
was appropriate, or seek to discharge the patient. Moreover, by signing the care plan for the
d ales at issue, the physicians were certifying the care was appropriate. Whether the plan was
signed contemporaneously or at a later point, this signature makes clear that the doctors
believed the care was appropriate, and had JHl discontinued care because of the lack of the
signature. it would have potentially been harmful to the patient. In addition, the vast majority of
the patients had care plans after the time period at issue which were also signed by the
physician, thereby demonstrating that l THHCP care continued to be appropriate. Finally,
meeting the second requirement for placement, eaCh patient was certified by the local
Department of Social Services' representative and JHl that they were eligible for the LTHHC
program. Accordingly, any conclusion that the patients were receiving services that they were
not entitled to or were inappropriate is simply without foundation.

III. 	   Review o f the    Ca re   Plan s   at   Issue Complied with      all   App licable Legal
         Requirem ents

        The Draft Report relies exclusively on the CMS-485 form to support its requiremen t of a
mandatory signature within 60 days. In footnote 2, however, the Draft Report acknowledges Ihat
Ihe Form CMS485 is nol a required form and states thai "[hJome health agencies may submit
any document Ihat is signed and daled by a phYSician that contains all of the required data
elements ... : The Draft Report ciles no legal authority forthe purported requirementlhat plan
of care documentation must be signed and dated by physician. Indeed, the only authority cited
to, 42 C.F.R. § 440.70(a)(2), is simply a definitional section relating to home health services
under waiver programs (such as New York's LTHHCP). This Regulation provides only Ihat the
care plan must be reviewed by the physician every 60 days. It contains no signature
requirement. 1

        In any event, because the LT HHCP is a creature of New York State law (pursuant 10
Federal waiver approval), see 10 N.Y.C.R. A. § 763, et seq., the issue of when physician
signature s are needed on clinical records fOf' an LTHHCP palient should be governed by State
law. Section 763.7 prescribes the clinical records that an agency must maintain "for eaCh
patienl admitted 10 care or accepled for service: Specifically, Section 763.7(a)(3)(j) and (ii)
require that the "medical records and nursing diagnoses            medications, treatments and
prognosis· must be sig ned by a physician "after admission" and "after issuance of any Ch ange in

         , Other Federal Regulations explicitly contemplate the use of verbal orders by physicia ns
in connectioll wilh tht! administration of d rugs and treatment by agency staff, uncsennlnlng any
a ssertion th at care plans must be signed by a physician. See 4 2 C. F.R. § 4B4.18(c).
                                                                                                     Page 5 of 12




Mr. James P. Edert                                                              ~ 

September 19, 2011 

Page 5 of 10                                                                Jewish Home Lifecare                

medical orders.' By contrast, Section 763.7(a){3)(iii) requires only that I e plan be "renewed ... 

as frequently as Indicated by the patient's condition but at least every 62 ays." 


          Section 763.7(a)(3) thus distinguishes between when a signature Is required and when
mere ' reoewar is sufficient. The distinction is nol a matter of semantics, It reflects a
recognition that LTHHCP patients are, by definition, long-term patients who would otherwise be
in a nursing home and thus, their health status is unlikely to change over the course of 60 days.
In short, while the Stale regulation clearly requires communication between the LTHHCP nurse
and the treating physician at feast every 62 days, there is no requirement for a physician
signature simply to renew a plan of care or that related paperwor1c: must be finalized within the
same timeframe.

IV.       JHL Made Every Reasonable Effort to Ensure that t he Plans were Reviewed

        The record demonstrates that JHL made every effort to have the care plans reviewed in
a timely manner. In order to ensure that the required review of the plan of care occurred, JHL
had a five-step system in place during the audit period which its employees are required to
follow. See Exhibit A . These instructions were set out on a form given to every employee who
deals with the care plans. Under this system:

      1. 	 An RN completes the 485 form two weeks prior to the certification date (the 485 ca nnot 

           be completed earller beca use it incl udes a sixty-day summary and projects the health 

           care needs over the next 60-da y peri od) a nd attempt to obtain verbal a pproval fro m the 

           MD. Indica ting th is on the 485. 


      2. 	 Filing clerk prints and mailslfaxes the form to the MD's office. The clerk enters the 

           mailing date into the tracking system. The cler1c: tracks the return of the signed 485 from 

           the MD's office. 


      3. 	 If the 485 is not returned in two weeks, the clerk contacts the MD office for follow-up. If 

           necessary, another 485 print-out is sent out via fax. mail or hand-delivery, whichever 

           method the MD's office requests. 


      4. 	 If the 485 is not received in two weeks (4 weeks have elapsed since the initial mailing), 

           the clerk reaches oul to the MD's office for follow· up , ag ain resending as outlined above. 


      5. 	 If I he 485 is not received in two weeks (6 weeks since the initial mailing), the cler1c: alerts 

           the DPS (Director of Patient Services) so that DPS or a designee can provide a higher· 

           level follow-up, calling the MD's office and attempting to highlight the need for signature. 


       As the documents attached to Appendix A dem onstrate, in addition to having these
proced ures in place, for e ach of the care plans at issue. these procedures were substantially
followed . JHL employees repeatedly contacted the doctors and attempted to ensure that they
reviewed the care plan. In each of these cases, the care pla ns were physically in the offices of
the doctors for their review, and JHL never received any indication that the pl ans were not
reviewed by the doctor or that the doclors felt that change s were needed. Ultimately, in the vast
                                                                                              Page 6 of 12




Mr James P. Edert                                                         (
September 19, 2011
Page6of 10                                                                    Jewish Home Lifeca re
majority of the cases, the forms were ultimately returned    It IS uncle what additional steps
HHS believes JHL should have take n to ensure th at the plans were in fact reViewed and stgned.

V. 	     There Is no Evidence That t he Physicians did not Review the Care Plan Within the
         60.Day Window

         As was noted above, each of the care plans at issue was generated by the JHL nursing
staff and then sent to the physicians for their review.        As such, the plans were in their
possession during the re levant period. The assumption in the Draft Report 's conclusion that the
physicians did not review the care plans which they had in their possession is without
foundation. To our knowledge, HHS did not interview the physicians but instead simply
concluded that they violated their responsibilities to their patients. To the contrary and as
detailed in Appendix A and its accompanying documents, there are multiple contacts that
occuned between JHL's nursing staff and physicians during the time period at issue. This
coordination indicates that the physicians were aware of the patients' continued receipt of
l THHCP services and that the physicians were specifically authorizing the provision of
additional care. Under these circumstances, there is no justification for determining that the
plans of care were not approved by the doctors.

VI .     Even if There is a Requirement That t he Care Plan be Signed Durlng t he 60-day
         Window, Some ofthe Claims Were Valid

         For a number of the cited ctaims, contrary to th e Draft Report findings, there is
documented evidence that tile physiCian orders were signed during the 60-day window. For
example. in sample 45, the physician signed the order on June 7, 2006. This fell into the
certification period , which is listed as May 17, 2006 until July 16. 2006. Similar1y, although in a
number of other cases, the doctors failed to indicate the date on which they signed the record,
contemporaneous computer notes from JHL's clerk of when the plan was returned indicate that
this occurred during the 6O-day window. As demonstrated by the tracking reco«ls in the
dOCtlments attached to Appendix A , this is true for claims 45, 53, and 93.

VII. 	   Applying t he OMIG Standard, All Care Plans Signed With in 90 Days Should Be
         Accepted

        Even if the applicable regulations are interpreted to require a physician signature for
every 6O-day renewal of a plan of care •• and putting aside the fact that such a requirement is
not authorized in statute - the entity charged with overseeing the auditing of New York's
Medicaid program has indicaled that it will only seek disallowance of claims when physician
signatures are obtained more than 30 days after the 6O-day renewal period. See OMIG
Analysis of Audit Findings-Long Term Home Health Cant Programs (LTHHCP), Effective Feb.
2009, Finding 8, annexed hereto as Exhibit B. As this was the standard set by OMtG, it is
inappropriate for HHS to apply a different standard. Accordingly, as demonstrated by Appendix
A and the attached documents, claims 3, 10, 26, 41 , 51 , 62, 71 , and 76 should not be
disallowed as they were signed within the 9O-day window.
                                                                                             Page 7 of 12




Mr. James P. Edert
September 19, 2011 	
Page 7 of 10 	
VIII. 	 HHS's Assertion That There was no Care Plan for Two Cia!
                                                                       1 V
                                                                           Jewish Home Lifecare
                                                                            Is Incorrect

        The Draft Report asserts that in two cases, samples 35 and 72, no care plan existed.
This is simply incorrect. As Appendix A 's attached documents demoostrate, there were plans of
care in place for both daims.

IX. 	   The Assertion That There Is no Documentation to Support Service in Connectlon
        with Claim 34 is Without Foundation

        For Claim 34, the Draft Report asserts that · Jewish Home did not provide documentation
that the related service (long-term nursing was provided)," This assertion is wrong. As the April
20, 2006 Home Visit Progress Note -- issued one day before the date of service at issue ­
demonstrates, the patient did receive long term nursing care and this care was in fact properly
documented. See Appendix A and accompanying documents.

X. 	    JHL Made Every Reasonable Effort to Ensure that t he Aide had the Proper
        Training

        The Draft Report asserls that in one claim, daim 7, lhe home health aide did not receive
basic training. Ahhough it does appear that the aide in question only received Home Health
Aide certification a few months after the date of service, JHl was reliant upon his agency and its
representation that the aide was properly trained. Interviews with relevant JHl staff indicates
that a qualified Home Health Aide was requested from the third party service and JHL, having
wor1<ed with this service successfully for years, relied on their having complied with the request.
Under these circumstances a disallowance would be improper.

XI. 	   The Draft Report Improperly Applies Conditions of Participation In the Medicaid
        Program.a Conditions of Payment

        The deficiencies identified in the Draft Report are based on a review of isolated
provisiOfls of the applicable regulations and focus on technical issues related to the nature and
timing of the documentation supporting the claims at issue. While JHL does not seek to
minimize the importance of compliance with the technical requirements, there is a distindion
between requiring strict compliance as a condition of continued participation In the Medicaid
program and requiring that same level of compliance as a condition of payment for services
provided to Medicaid beneficiaries, Here, the Draft Reporl'S attempt to impose strict comptiance
with administrative requirements as a condition of payment for services provided by JHL to
beneficiaries is Improper and unfair.

       More fundamentally. a technical documentation error should not prevent payment of a
claim where services were otherwise property rendered. The federal government itself has
recognized this explicitly in connection with the Medicare program:

        The Conditions of Participation (COP) requ irements cannot oe used as e baSIS for
        denying payment. The COPs define specific quality standards that providers must
                                                                                              Page 8 of 12




Mr. James P Edert                                                       ~
September 19, 2011                                                        rI
Page 8 of 10                                                              {    Jewish Home Lifecare
        meet to participate In the ... Medicare program A provider'S     pllance with the
        COPs IS determined by the regional office (RO) based on the State survey agency
        recommendation . In cases where you believe that the COPs are not being met or
        when problems have been identified, you should notify your RO and the
        appropriate Stale survey agency so that they can iniUate appropriate action.

Medicare Program Integrity Manual Sec. 3.4.2.1 ("Role of Conditions of Participation
Requirements When Making a Payment Decision") (emphasis added).

        In addition, the New York State Department of Health ("NVSDOH") has acknowledged
the distinction between conditions of participa tion and conditions of payment and stated in
response to 8 2010 draft audit report concerning Medicaid claims for personal care services:

       A failure to comply 100 percent with a procedural requirement does not negate the
       validity of the program benefit or the beneficiary's dire need for the services.
       When a Medicaid beneficiary has an immediate need for services in OI"der to
       remain in his or her home, a local district may have to choose between strict
       regulatory procedural compliance or patient health and safely. The Department
       hopes in such situations that the federal government will agree that patient health
       and safety takes priority over procedural compliance. If the OIG asserts that strict
       adherence 10 procedural requirements contained in the State's regulations is the
       essential criteria upon which federal funding is based, New York and other states
       may be forced to re-evaluate their home and community-based program/services
       regulations.

HHS, Review of Medicaid Personal Care Services Claims Made by Providers in New York state
(A-02-08-01005), October 8, 2010, app. O.

        Federal courts, too, have recognized the distinction between conditions of participation
and conditions of payment. In US ElK rei. Connor v. Salina Regional Heanh Center, Inc., 543
F.3d 1211 (10th Cir. 2(08), a case brought under the federal False Claims Act that involved
disputed Medicare claims, the court concluded that "although the government consider.;
substantial compliance a condition of ongoing         . participation, it does not requ ire perfect
compliance as an absolute condition 10 receiving payments for services rendered: 543 F.3d at
1221 (emphasis in original). See U.S. 13K rei. Wilkins v. United Health Group, Inc., 10-2747 (31<1
Cir. 6-30-2011), at 28.

       In short, while NYSOOH may appmpnately impose administrative sanctions on a
provider thai faits to comply with certain conditions of participation, HHS should not be permitted
to use that same failure to retroactively disallow payment of claims for services adually
rendered.
                                                                                                  Page 9 of 12




 Mr James P Edert 	                                                         ~
 September 19, 20 11 	                                                       "
 Page 9 of 10 	                                                              1Jewish Home Lifecare
 XII. 	    Pursuant to 18 N.Y.C.R.R § 540 6{a)(3)(i) any Plan That was            igned Within 2 years 

           of the Date Should not be Disallowed 


           Finally, the regulation governing billing under the New York Medicaid program provides
that:

           all claims for payment for medical care, services or supplies furnished by non~
           public providers under the medical assistance program must be finally submttted
           to lhe department Of its fisca l agent and be payable within two years from the
           dale the care, services or supplies were furnished in order to be valid and
           enforceable as againsllhe departme nt or a social services district.

 18 N.Y.C.R.R. § 540.6(a)(3)(i).

        In short, notwithstanding any disputes ever documentation provided in support of cla ims,
a provider has two years to "finally submit(]" a claim. Here, while there may be disputes over
whether JHL had certain documentation within the 50-day certification period invoked by the
Draft Report, it cannot be disputed that appropriate documentation was in place for virtually all
of the claims at issue within the 2-year period provided under Section 540.6. Any fa ir evaluation
of the claims at issue should, accordingly, take into account aU infonnation and documentation
obtained by JHL within two years of the date of service, rather than the 6O-day period set forth
in the Draft Report.

                                            CONCLUSION

       For all of the reasons stated above, we urge you to revisit you r findings and not include
these disallowances in any final audit. The audit should more properly focus on the systemic
challenge of obtaining timely signatures from physicians. While the accountability that is
engendered by this requirement is important, this accountability could be beller achieved
through the esta blishment of mechanisms other than disallowance of payment.

        Once again we thank you for the opportunity to respond to the Draft Report. Please let
us know if you would like any more information. As always we are available to meel to d iscuss
these issues.


                                           Very Trul y Yours,



                                    B'i~G~
                             Senior Vice President, Community Services
                                                                                                   

                             120 West 106\11 Street, New Yorio;, NY 10025
                         Direct: (2 12-870-4837) Email: bgallagher@j hha.org
Enclosures

1.<I'90. H6v3
              Page 10 of 12 





EXHIBIT A 

                                                                                             Page 11 of12




                                            Jewish Home Lifecare


                   Process for 485 (NID Order) Follow-up


I. 	 RN completes 485 two weeks prior to certification date (485 cannot be completed
     earlier secondary to the fact that it goes with a sixty day summary and predicts
     next 60 day health care needs) and obtains verbal approval from MD, indicating
     same on 485.

2. 	 Filing clerk prints and mai ls/faxes 10 MD office. Enters date mailed into tracking
     system. Clerk tracks return of signed 485 from MD office.

3. 	 If 485 is not returned in two weeks, clerk contacts the MD office for follow-up. If
     necessary, another 4 85 print oul is sent Qut via fax, mail or hand-delivery, whcich
     eve r method MO office requests.

4. 	 If 485 is not rt:Ceived in two weeks (4 weeks have elapsed since initial mail out),
     the clerk reaches out to MD office for follow-up, again resending as outlined
     above.

S. 	 If 485 is not received in two weeks (6 weeks since initial mailing), the clerk alerts
     the DrS so that Drs or designee can provide a higher-level follow-up, calling the
     MD office and attempting to highl ight need for signature.
                                                         Page 12 of 12 





-~~
-~~
c~"IN>ra.



_iii.
~tNor        .. ", .... _
(.....,j llWfio             ...,.
                            Mt:lI _OIfbWo...
                            •"11    ,.."Of<itOffnwo...
                                                                                                               Page I of3

                   APPENDIX E: STATE AGENCY COMMENTS



=	===========r_                        NEWYORK L===========
                                         JIOII drl'or(",.M of   ~


  Nj'av R. Shih. M.D.• M.P.H.
 Commoll'one,
                                       HEALTH                                                    Sue Kelly
                                                                            e.ecut;"'" Deputy Com",i..;o.,.,



                                                       March 28, 201-2




James r : Eden
Regionallnspcctor General for Audit Services
Department of Health and Human Services
Region II
Jacob Javitz Federal     BuiJdin~
26 Federal Plaza
New York, New York 10278

                                                       Ref No. A~02 - IO-Ol002
Dear Mr. Eden;

         Enclosed are the New York State Department ofHeaI.t h's comments on the Depanment
of Health and Human Services, Office of Inspector General ' s draft audit report A-02-10-01002
on "Review of Selected Medicaid Home Health Services Claims Made by Jewish Home and
Hospital Lifecare Community Services Manhattan LTHHCP."

         Thank you for the opportunitY to comment.




                                    ~?::'~J/~/'?
                                        RObertW.~~
                                                  .
                                                       Deputy Director
                                                           for Administration
Enclosure

c:c: 	   Jason Helgerson
         James C. Cox
         Diane Christensen
         Dennis Wendell
         Stephen Abbott
         Stephen laCasse
         Irene Myron
         John Brooks
         ~onald   Farrell
         Barry Benner

                                        HEALTH.NY.GOV
                                         _      .C#roINYSDOtl
                                        ~-.~
                                                                                                      Page 2 of3



               New York State Department of Health's 

                           Comments on the 

             Department of Health and Human Services 

                     Office of Inspector General's 

              Draft Audit Report A-02-10-01002 oq the 

      "Review of Selected Medicaid Home Health Services Claims 

             Made by Jewish Home and Hospital Lifecare 

            Community Services - Manhattan LTHHCp·" 


The foll owing are the New York State Department of Health 's {Departmem} comments in
resporule to the Department of Health and Human Services, Office oflnspeclor General's (DIG)
draft audit report A-02-\ 0-01 002 on the "Review of Selected Medicaid Home Health Services
Claims Made by Jewish Home and Hospital Lifecare Community Services - Manhattan
LTHHCP."

Recommendation #1:

The State agency should refund $8, 177,970 to the Federal Govenunent.

Respon~e   #1:

The Department does not agree that it should refund monies to the Federal government as Ibis
DIG recommendation is based on a misinterpretation of the program's requirements.
Specifically, neither fedeml or state regulations implicitly require a physician's signature on the
plan of care; only a physician's review is required:

    • 	 '42 CFR 440.70 (aX2) - "on his or her physician's orden as part ofa written plan ofcare
         that the physician r eviews (emphasis added) every 60 days... '"

   • 	 NYCRRIO 763.7(aX3) - "r eviewed (e.mphasis added) by the authorized pmctitioner as .
       frequen tly as indicated ?y the patient's condition but at least every 62 days"

Recommendation #2:

The State agency should improve its monitoring of Jewish Home and its contracted home health
providers to ensure compliance with federal and Stale requirements.

Response #2:

The Department maintains its monitoring is effective and that the p~vider did comply with the
progl"!Ul1' s requirements. Prior to this audit, Jewish Home administrators implemented a system
for tracking CMS-485 foons (Home Health Certification and Plan of Care). In cases where a
delay is experienced in receiving the fonn from the physician, the provider is verifying its
compliance efforts'by docwnenting staff contacts with the pl;!ysician's office. Such contacts
                                                                                            Page 3 of3



                                                2

often result in securing interim verbal orders, thereby meeting patient service needs and
safeguarding the assurance of patient health and safety.
